No. 19-1164
3(n tlje

Supreme Court of tfje fHntteb i§>tate£
Jocelyn A. Johnson,
Petitioner,
v.
Workers’ Compensation Appeals Board of the
State of California, Coca-Cola Bottling
Company, Alexis Risk Management, Kemper
Insurance, Broadspire,
Respondents.
On Petition for Writ of Certiorari to the
Supreme Court of California
PETITION FOR REHEARING
Jocelyn A. Johnson
5329 Clark Street
Lynwood, CA 90262
(562) 502-0546
Petitioner Pro Se

1

TABLE OF CONTENTS
TABLE OF AUTHORITIES

11

PETITION FOR REHEARING

1

REASONS FOR GRANTING

1

CONCLUSION

2

CERTIFICATION
APPENDIX
Appendix A Opinion On Decision of the State of
California Workers Compensation
Board
(June 18, 2002)
App. 1
Appendix B Order Granting Appointment of
Guardian Ad Litem and Trustee of the
State of California Workers’
Compensation Appeals Board
(July 1, 2003)
App. 9
Appendix C Order Rescinding Order Granting
Guardian Ad Litem and Trustee of the
State of California Workers’
Compensation Appeals Board
(July 30, 2003)
App. 11
Appendix D Letter
from
the Workers’
Compensation Judge to Cherilyn Johnson
(May 21, 2003)
App. 13

11

TABLE OF AUTHORITIES
CASES
James J. Thole, et al. Petitioners u. U.S. Bank A., et
al. (June 1, 2020) No. 17-1712.............................

2

Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992).................................................

1

CONSTITUTION
U.S. Const. Art. Ill, Sec. 2

1

RULE
U.S. Sup. Ct. R. 44.2

1

1
PETITION FOR REHEARING
Pursuant to U.S. Supreme Court Rule 44.2
Petitioner Jocelyn A. Johnson hereby respectfully
petition this Court for rehearing of this case. An order
vacating its denial for Writ of Certiorari entered on
May 26, 2020, and grant certiorari. The Petition for
Rehearing is filed within 25 days.
REASONS FOR GRANTING
Article III of the U.S. Constitution Section 2
The Judicial Power shall extend to all cases, in Law
and equity, arising under this, Constitution, the law of
the United States, and treaties made, or which shall be
made, under their authority.
There are intervening circumstances of a
substantial or controlling effect petitioner also assert
standing under Article III Section 2
(1) She has suffered injury in fact that is concrete,
particularized, and actual or imminet
(2) injury was caused by the defendant
(3) the injury would likely be redressed by the
requested Judicial relief.
Lujan u. Defenders of Wildlife, 504 U.S. 555, 560-561
(1992).
Petition an employee of Coca-Cola Bottling
Company and a vested member in good standing with
Teamsters Local Union 896 a participant in Erisa’s
defined pension benefit plan under union contract. And
have not received pension plan benefit payments.

/

2
James J. Thole, et al. Petitioners v. U.S. Bank A., et al.
(June 1, 2020) No. 17-1712.
Petition allege a concrete injury in fact and have
suffered by the action of defendant, likely to be
redressed by a favorable decision.
CONCLUSION
Petitioner pray the order denying Certiorari be
vacated and rehearing Granted. Alternatively reverse
and remand to Court of Appeal Second Appellate
District vacating its order denying review an order the
relief requested.
Respectfully submitted,

Jocelyn A. Johnson
5329 Clark Street
Lynwood, CA 90262
(562) 502-0546
Petitioner Pro Se

CERTIFICATION
The foregoing is restricted to the grounds specified
in 44.2 S. Ct. R, and it is presented in good faith and
not for delay.
4 V , vr» /.A Jhtirfskm
y.-Z ,2xr.
flrirp

\

Petitioner-Pro Se

7~~^:
/

APPENDIX

1

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion On Decision of the State of
California Workers Compensation
Board
(June 18, 2002)
App. 1
Appendix B Order Granting Appointment of
Guardian Ad Litem and Trustee of the
State of California Workers’
Compensation Appeals Board
(July 1, 2003)
App. 9
Appendix C Order Rescinding Order Granting
Guardian Ad Litem and Trustee of the
State of California Workers’
Compensation Appeals Board
(July 30, 2003)......................
App. 11
Appendix D Letter from the Workers’
Compensation Judge to
Cherilyn Johnson
(May 21, 2003)......................

1

App. 13

App. 1

APPENDIX A
STATE OF CALIFORNIA
WORKERS’ COMPENSATION BOARD
BGN 0131581
WORKERS’ COMPENSATION JUDGE:
ROBERT Y. NAKAGAWA
[Filed June 18, 2002]
JOCELYN JOHNSON
-vs-

)
)
)
)

COCA COLA BOTTLING CO, )
KEMPER INSURANCE
)
COMPANY
)
DATE OF INJURY:

]

OCTOBER 1987 THROUGH
JUNE 19, 1988

OPINION ON DECISION
INTRODUCTION:
The November 2, 1990 Minutes of Workers’
Compensation Judge Carlos Rodriguez, when the
applicant was represented by David Lilly, reflect
Stipulations and Issues and Exhibit # 1 and A. The
matter was taken off calendar.

(
(

App. 2
The June 12, 1992 Minutes of Workers’ Compensation
Judge Rodriguez reflect Exhibit #2 and B. The
disposition reflects the matter will stand submitted
when mutually requested.
On October 4, 1996, the applicant was represented by
Manuel Graiwer and the parties found Stipulations
and Issues and took in Exhibits #X1 and X2 and the
case was submitted.
The November 27, 1996 Findings and Award, which
was not in the Workers’ Compensation Appeals Board
found injury to the low back, neck, shoulders,
respiratory system and psyche due to her employment
from October, 1987 through June 19, 1988. Her
earnings were $498.00 per week resulting in a
temporary disability compensation rate of $322.00 per
week and a permanent disability rate of $140.00 per
week. Temporary disability was found from June 20,
1988 through February 1, 1990 at $332.00 per week.
Further medical treatment was found based upon
Agreed Medical Examiner, Dr. Endler’s June 7, 1994
report and April 11, 1995 deposition as well as Agreed
Medical Examiner, Dr. Wixen’s June 22, 1995
deposition at Page 33-34, plus Agreed Medical
Examiner, Dr. Gillis’ August 31, 1995 report. The
issues of permanent disability, apportionment, selfprocured medical treatment, medical-legal costs,
Serious and Willful Misconduct, earnings under the
Thrifty Drug Store holding, and VRTD were deferred.
Order Denying Reconsideration issued on January 23,
1997.

?

App. 3
The August 12, 1997 Minutes reflect the applicant’s
attorney was relieved and the case was taken off
calendar for applicant to find a new attorney.
The July 15, 1999 Minutes reflect the case was to stand
submitted on August 15, 1999 on issues of Vocational
Rehabilitation with Exhibits #1, A, and B.
The Court issued a September 15, 1995 Findings and
Award of VRTD from February 2, 1990 through May 9,
1997 at $332.00 per week, less credit for sums paid and
days worked with 15% withheld as attorney’s fees, less
credit for a VRTD overpayment from June 16, 1998 to
May 3, 1999 to be adjusted.
The Order Denying Defendant’s Petition
Reconsideration issued on December 1, 1999.

for

The February 1, 2001 MSC of Workers’ Compensation
Judge Ward states good cause for one last continuance
so pro per applicant could find an attorney.
The March 15, 2001 MSC Minutes of Workers’
Compensation Judge Van Riper states the case was set
in error before him and was continued to June 11, 2001
before Workers’ Compensation Judge Nakagawa.
The June 11, 2001 Trial Minutes reflect two letters
from the applicant and responses were not in the file.
The matter was continued on notice to September 24,
2001.
The Workers’ Compensation Judge served a June 12,
2001 letter stating the applicant does not have a right
to a jury trial before the Workers’ Compensation
Appeals Board.

App. 4
The defendant filed a June 28, 2001 Petition to Remove
to request no further continuances. The July 25, 2001
Order denied the Petition.
On September 24, 2001, the applicant’s request for
continuance or order taking off calendar to get an
attorney was denied. The Court issued a thirty-day
Notice of Intention to refer the matter to the Disability
Evaluation Unit with seven days to request crossexamination or rebuttal, otherwise to stand submitted.
On December 27, 2001, the Court served the November
21, 2001 Formal Rating and Rating Instructions.
On January 8, 2002, the applicant filed her Motion to
Strike the Ratings and Request to cross-examine the
Disability Evaluator.
On March 14, 2002, the case was set for trial to cross­
examiner the Rater. The trial was continued to May 16,
2002 due to the unavailability of the Workers’
Compensation Judge.
RIGHT TO JURY TRIAL:
The Court finds the applicant does not have a right to
jury trial, pursuant to Labor Code §5300.
SELF-PROCURED MEDICAL TREATMENT:
Self-procured medical treatment is to be adjusted by
the parties or determined herein upon the filing of a
petition and supporting documents.

App. 5
MEDICAL-LEGAL COSTS:
Medical-legal costs are too be adjusted by the parties or
determined herein upon the filing of a petition and
supporting documents.
EARNINGS REGARDING THE THRIFTY DRUG
STORE HOLDING:
The applicant contends her earnings should be
adjusted to reflect union raises.
The issue is moot because the applicant is maximum
for permanent disability.
PERMANENT DISABILITY AND APPORTIONMENT
- ORTHOPEDIC:
Agreed Medical Examiner, Dr. Endler’s February 8,
1994 report states at Page 11 that the applicant is
restricted from lifting from ground to waist level,
particularly with her knee extended due to low back
disability.
Agreed Medical Examiner, Dr. Endler’s June 7, 1994
deposition states at Page 16 that the applicant should
not be working above shoulder level due to her neck
disability. At Page 38 the applicant’s low back
disability precludes prolonged standing, repeated
bending, stooping and squatting. At Page 40, the
applicant is precluded from lifting more than fifty
pounds.
Agreed Medical Examiner, Dr. Endler’s April 11, 1995
deposition states at Page 16 the applicant is precluded
from climbing, ascending and descending ladders, and

App. 6
reaching at shoulder height in a repetitive manner due
to neck and shoulder disability.
Agreed Medical Examiner, Dr. Endler’s April 11, 1995
deposition states at Page 42 that he ascribes 50 percent
of low back, neck, and shoulder disability to industrial
causation.
PERMANENT DISABILITY AND APPORTIONME NT
- PSYCHE:
Agreed Medical Examiner, Dr. Wixen’s July 7, 1992
report states the following Work Function
Impairments:
1.
2.
3.
4.
5.
6.
7.
8.

Very slight
Very slight
Slight
Slight
Slight
Slight
Slight
Slight

apportioned 30% due to her perception of stress,
harassment, and unfair treatment during her
employment at Coca Cola. The remaining 70% is due to
the physical discomfort and disability caused by her
asthma.
Agreed Medical Examiner, Dr. Wixen’s June 22, 1995
deposition at Page 32 states the overall disability is
very slight. At Pages 35-36 the emotional condition
precludes severe emotional stress.

App. 7
PERMANENT DISABILITY AND APPORTIONMENT
- INTERNAL:
Agreed Medical Examiner, Dr. Gillis’ August 31, 1995
report states the applicant’s occupationally-related
pulmonary disability precludes pulmonary toxic job
environments.
Agreed Medical Examiner, Dr. Gillis’ January 18, 1996
deposition states at Page 99-105, and Page 111, the
applicant is precluded from working around dust,
fumes, chemicals and exhaust fumes and ought not
work in enclosed buildings consisting of tight-building
syndrome, work environments that don’t have good,
adequate, clean air flow nor exhaust fumes.
At Page 114, the doctor states he couldn’t have imposed
a retrospective prophylactic restriction.
Based upon the aforementioned Agreed Medical
Examiner reports and depositions, the formal rating
instructions and the November 21, 2001 Formal
Rating, the following rating instructions apply:
50%

(18.1) - 55 - 19F - 55 - 53) 26:2
(7.3)
1.41 - 10 - 19F - 10
9:1
6.1 -10 - 19F- 10
9:1
MDT 41:1

which is 188.25 weeks at $140.00 per week totalling
$26,355.00 payable beginning May 4, 1999, less credit
for sums paid less attorney’s fees to be withheld

App. 8
SERIOUS AND
EMPLOYER:

WILLFUL

MISCONDUCT

OF

This issue is deferred.
ATTORNEYS FEES:
The Court is of the opinion $3,950.00 be withheld
pending further order.
Date: 6-18-02
/s/Robert Y. Nakagawa_______________
ROBERT Y. NAKAGAWA
WORKERS’ COMPENSATION JUDGE
Filed and served on:
6-18-02
On all parties on the
Official Address Record
By:Js[________________

App. 9

APPENDIX B
STATE OF CALIFORNIA
WORKERS’ COMPENSATION
APPEALS BOARD
Case No. BGN 0131581
[Filed July 1, 2003]
CHERLYN JOHNSON,
Applicant
vs.

)
)
)
)
)
)

COCA COLA BOTTLING COMPANY;
KEMPER NATIONAL INSURANCE,

)
)

Defendants.

)
)

ORDER GRANTING
APPOINTMENT OF
GUARDIAN AD LITEM AND TRUSTEE
Pursuant to the June 11, 2003 Petition, CHERYLN
JOHNSON, the applicant’s daughter, is appointed as
the applicant’s Guardian ad Litem and Trustee.
Date: 7-1-03

App. 10
/s/Robert Y. Nakagawa
ROBERT Y. NAKAGAWA
WORKERS’ COMPENSATION JUDGE
Filed and served on:
7-1-03
On all parties on the
Official Address Record
By:_/s/________________

App. 11

APPENDIX C
STATE OF CALIFORNIA
WORKERS’ COMPENSATION
APPEALS BOARD
Case No. BGN 0131581
[Filed July 30, 2003]
JOCELYN JOHNSON,
Applicant
vs.
COCA COLA BOTTLING CO.;
KEMPER NATIONAL INSURANCE,
Defendants.

)
)
)
)
)
)

)
)
)
)

ORDER RESCINDING ORDER GRANTING
GUARDIAN AD LITEM AND TRUSTEE
A Petition for Reconsideration having been filed on
July 23, 2003, and good cause appearing pursuant to
the provisions of WCAB Rule 10859, as amended,
effective February 1, 1995,
IT IS ORDERED that the Order issued on July 1,
2003, in the above-entitled case be, and hereby is
rescinded.

App. 12
The matter is set for conference and further
proceedings on notice at Department 7, 320 W. 4th
Street, 9th Floor, Los Angeles, California 90013 before
the Honorable Robert Y. Nakagawa, Workers’
Compensation Judge.
Date: 7-30-03
/s/Robert Y. Nakagawa
ROBERT Y. Nakagawa
Workers’ Compensation Judge
WORKERS’ COMPENSATION APPEALS BOARD
Filed and Served by mail on:
7-30-03
On all parties on the
Official Address Record
By /s/

App. 13

APPENDIX D
STATE OF CALIFORNIA

GRAY DAVIS, Governor

DEPARTMENT OF INDUSTRIAL RELATIONS
Division of Workers’ Compensation,
Workers’ Compensation Appeals Board
320 West Fourth Street, 9th Floor,
Los Angeles, CA 90013
tel: (213) 576-7335
May 21, 2003
Ms. Cherilyn Johnson
5329 Clara Street
Lynwood, California 90262
Cherlynn Johnson, Guardian ad Litem on behalf
of Jocelyn Johnson, an Incompetent
Case No. BGN 0131581
Dear Ms. Johnson:
In response to your Petition dated April 30, 2003,
please file and serve DWC WCAB Form #8, “Petition
for Appointment of Guardian ad Litem and Trustee”.
Very truly yours,
s/
Robert Y. Nakagawa
Workers’ Compensation Judge
RYN:cd
cc: Heisler & Bray, 6351 Owensmouth Avenue #100,
Woodland Hills, CA 91367

